I N V E S T I G A T I V E
M E M O R A N D U M G - 3 9 8 / 4 0 2

                                                                                  April 14, 2005

To:      Giovanni Prezioso
         Stephen Cutler
From: Walter Stachnik
Re:      Additional Employee Ethics Training

During two investigations recently conducted by the Office of Inspector General
(OIG-398 and OIG-402), it came to our attention that additional ethics guidance is
needed in two areas:
    •    Clearer guidance for departing employees, particularly attorneys, on post-
         employment restrictions and notification requirements; and
    •    Specialized training for Enforcement attorneys on ethical issues, particularly
         those that arise while attorneys are on official government travel.


POST EMPLOYMENT RESTRICTIONS & NOTIFICATION
REQUIREMENTS
We recently investigated whether a former Commission attorney violated post-
employment restrictions contained in 18 U.S.C. § 207(a)(1)1 and 17 C.F.R. § 200-
735-82 (OIG-398). Under Commission Rule 8(b)(1), 17 C.F.R. § 200-735-8(b)(1), for
two years after leaving the SEC, all former employees must provide notice to the
Secretary upon being retained as the representative of anyone in any matter in
which it is contemplated that the former employee will appear before the
Commission or communicate with Commission staff. Under this rule, notice must be
given “within ten days of such retainer or employment, or of the time when



1
  18 U.S.C. § 207(a)(1) provides that “[a]ny person who is an officer or employee (including any special
Government employee) of the executive branch of the United States . . . and who, after the termination of
his or her service or employment with the United States . . . knowingly makes, with the intent to influence,
any communication to or appearance before any officer or employee of any department, agency, court, or
court-martial of the United States . . . on behalf of any other person (except the United States . . . ) in
connection with a particular matter . . . (A) in which the United States . . . is a party or has a direct and
substantial interest, (B) in which the person participated personally and substantially as such officer or
employee, and (C) which involved a specific party or specific parties at the time of such participation . . .
shall be punished as provided in section 216 of this title.”
2
  17 C.F.R. § 200-735-8(a)(1) provides that “[n]o person shall appear in a representative capacity before
the Commission in a particular matter if such person, or one participating with him or her in the particular
matter, participated personally and substantially in that matter while he or she was a member or employee
of the Commission.”
                                                                                       2

appearance before, or communications with the Commission or its employees if first
contemplated.” Id.
During our investigation, the former Commission attorney informed us that, prior to
attending a presentation by the Commission’s Ethics Counsel at “SEC Speaks,” he
was not aware that the Commission’s Office of Ethics Counsel interpreted Rule
8(b)(1) to require that a former employee not communicate with Commission staff
until after receiving clearance from the Office of the Secretary. The former attorney
indicted that he received a memorandum on post-employment restrictions when he
left the Commission, but did not have a briefing on those restrictions. The Office of
Ethics Counsel’s written guidance on post-employment restrictions, dated November
24, 1997, paraphrases the language of Rule 8(b)(1), but does not specifically state
that clearance from the Secretary’s Office must be received before the former
employee may communicate with Commission staff on a matter. We believe that it
would helpful, to avoid any confusion in this area, if the Office of Ethics Counsel
within the Office of General Counsel (OGC) provided additional guidance (both
verbal and written) to departing employees on post-employment restrictions and
notification requirements.

        Recommendation A
        OGC should provide additional guidance (both written and verbal) for
        departing employees concerning post-employment restrictions and, in
        particular, the proper interpretation of the notice requirement of Commission
        Rule 8(b)(1). OGC might consider requiring departing employees to sign a
        document stating they have read and understood OGC’s guidance on post-
        employment restrictions.


SPECIALIZED ETHICS TRAINING FOR ENFORCEMENT
ATTORNEYS
In another investigation (OIG-402), we found that Commission attorneys, while on
official travel, accepted meals and local transportation expenses (e.g., taxis) from
outside sources, such as court-appointed receivers, opposing counsel, and court
reporters, possibly in violation of the Standards of Ethical Conduct for Employees of
the Executive Branch (Standards). Commission Enforcement attorneys encounter
many situations, particularly while on official travel, when they need to make on-
the-spot determinations as to what constitutes a gift under the Standards and
whether to accept a gift.
We believe that it would be beneficial if Commission Enforcement attorneys were
provided with specialized ethics training, in addition to the ethics training currently
provided by the Office of Ethics Counsel. This additional training could provide
Enforcement attorneys with guidance on how to handle situations that may arise,
particularly when attorneys are on official travel, such as:
    •   When it is (or is not) appropriate for Enforcement attorneys to accept meals
        and entertainment from outside parties, and appearance concerns that may
        be created by dining and socializing with outside parties;



Additional Employee Ethics Training (Investigative Memorandum G-398/402)   April 14, 2005
                                                                                         3

      •   Whether Enforcement attorneys may share taxis with outside parties and
          when it is (or is not) appropriate to permit an outside party to pay for a
          shared taxi;
      •   Whether Enforcement attorneys are permitted to accept rides in private
          automobiles from outside parties, such as court-appointed receivers; and
      •   Under what circumstances Enforcement attorneys are permitted to accept
          seat upgrades, vouchers and other airline benefits, and what, if any, travel
          expenses incurred due to voluntarily taking a later flight may be claimed.
The Division of Enforcement should consider making the additional ethics training
mandatory and tracking whether Enforcement attorneys complete the training. One
option for providing this training might be to develop computer-based training that
would include quiz sections based on scenarios illustrative of situations Enforcement
attorneys might experience, particularly while on official travel. Enforcement
attorneys who complete the training could receive a certificate of completion (via e-
mail).



          Recommendation B
          The Division of Enforcement, in coordination with the OGC and the Office of
          Financial Management, should provide additional ethics training to
          Commission Enforcement attorneys focusing on situations that may be
          encountered by these attorneys, particularly when they are on official travel.
          An appropriate time frame should be determined for conducting the training
          (e.g., upon joining the Commission and annually thereafter).


cc:       Michelle Barrans
          Margaret Carpenter
          James Clarkson
          David Kornblau
          William Lenox
          James McConnell
          Joan McKown
          Darlene Pryor




Additional Employee Ethics Training (Investigative Memorandum G-398/402)     April 14, 2005
